           DEPARTMENT OF HEALTH &. HUMAN SERVICES	                                                   Office of Inspector General


                                                                                                     Washington, D.C. 20201




                                                                MAR 2 1 2008



TO:	                   Kerry Weems
                       Acting Administrator
                       Centers for Medicare & Medicaid Services


FROM:	                Daniel R. Levinson                 ~        t. ~
                      Inspector General


SUBJECT:	 Memorandum Report: "Long Term Care Hospitals Short-Stay Outliers,"
                      OEI-OI-07-00290


This memorandum report provides information on long term care hospitals (LTCH) short-stay
outliers. Short-stay outliers are LTCH stays that end before they reach five-sixths of the average
length of stay for the patient's diagnosis (LTC-DRG). Specifically, we reviewed LTCH claims
for fiscal years (FY) 2003 to 2006 to determine the extent and nature of short-stay outliers in
LTCHs. We also reviewed data from the Quality Improvement Organization (QIO) medical
record reviews of LTCH claims for FYs 2005 and 2006 to analyze the payment error rates for
short-stay outliers.

Short-stay outliers decreased annually from 40 percent of LTCH stays discharged in
FY 2003 to 27 percent of stays discharged in FY 2006. Despite the decline in short-stay outliers,
some discharge patterns raise questions. From FY 2003 through FY 2006, LTCHs discharged
over a third of short-stay outlier patients at least 10 days before they reached the short-stay
outlier threshold. During this period, LTCHs increasingly discharged patients within 2 days after
the patients qualified for fullLTC-DRG payments. The discharge patterns to post-acute care
facilities for short-stay outlier patients differed from discharge patterns of other LTCH patients.
However, for FYs 2005 and 2006, short-stay outlier payment errors mirror those of all other
LTCH claims. Almost aU of the payment errors that QIOs identified with LTCH claims were
inaccurate LTC-DRGs and inappropriate LTCH admissions.

BACKGROUND

Over the past decade, the number of LTCHs has increased rapidly. Between 1995 and 2005, the
number of LTCHs more than doubled, increasing from 178 to 383. During this period, Medicare
payments to LTCHs increased from $836 million to $4.6 billion. t



t Medicare Payment Advisory Commission. "Long-Term Care Hospitals Payment System." September 2006.


OEI-Ol·07.o0290   Long Term Care Hospital Short·Stay Outliers
Page 2 – Kerry Weems


Long Term Care Hospital Characteristics
LTCHs treat patients with complex medical conditions that require prolonged post-acute
hospital-level care. Common LTCH treatments include comprehensive rehabilitation, respiratory
therapy, head trauma treatment, and pain management.

Pursuant to Federal law, LTCHs must have an average inpatient length of stay greater than
25 days.2 Federal regulations identify no additional requirements to distinguish LTCHs from
general acute care hospitals. LTCHs can be freestanding facilities or hospitals-within-hospitals
(HwH).3 A freestanding LTCH occupies an entire building or campus. HwHs are colocated with
another hospital-level provider (referred to as the host hospital), either sharing a building or on the
campus of its host.4 The Centers for Medicare & Medicaid Services (CMS) reduces payments to
HwHs that readmit more than 5 percent of the patients they discharge to their host hospitals in a
fiscal year.5 CMS applies an additional payment adjustment if the LTCH HwH admits patients in
excess of a specified threshold from its host hospital.6

A 2004 Medicare Payment Advisory Commission (MedPAC) report found that LTCHs are usually
the most costly post-acute care setting. For patients with the most common LTCH diagnoses,
MedPAC found that LTCHs have reimbursement rates that are up to 4.4 times higher than
estimated rates for inpatient rehabilitation facilities and up to 12 times higher than estimated rates
for skilled nursing facilities.7 Furthermore, CMS found that LTCH Medicare payments for
FY 2003 were about 8 percent higher than LTCHs’ Medicare costs.8

LTCH Payment
In FY 2003, CMS implemented a prospective payment system for LTCHs.9 In this system, LTCHs
classify patients into LTC-DRGs based on the clinical characteristics of the patient. CMS assigns
relative weights to each LTC-DRG that reflect the typical cost associated with treating patients with



2 Section 1886(d)(1)(B)(iv) of the Social Security Act defines a long term care hospital (LTCH) as “a hospital which has an average inpatient 

length of stay (as determined by the Secretary of the Department of Health and Human Services) of greater than 25 days.” See also 

42 CFR § 412.23(e)(3)(iii), which states that facilities seeking to convert to LTCHs must submit Medicare discharge data related to average 

length of stay gathered during 5 of the 6 months immediately preceding the conversion. 

3 An LTCH may also establish a “satellite facility,” which is part of a hospital located within or on the campus of another hospital-level provider.

42 CFR § 412.22(h).

4 42 CFR § 412.22(e).

5 42 CFR § 412.532.

6 42 CFR § 412.534.

7 Medicare Payment Advisory Commission. June 2004. “Report to the Congress: New Approaches in Medicare.” Chapter 5: “Defining Long 

Term Care Hospitals,” p. 122.

8 Preliminary data for fiscal year (FY) 2004 revealed an even higher margin of about 13 percent for that year. Testimony of Herb Kuhn, Deputy

Administrator for the Centers for Medicare & Medicaid Services (CMS) before the Committee on Ways and Means, Subcommittee on Health, 

U.S. House of Representatives, 110th Cong., March 15, 2006. Available online at
http://waysandmeans.house.gov/hearings.asp?formode=view&id=5262. Accessed December 31, 2007.
9 Before FY 2003, Medicare paid LTCHs based on the average cost per discharge.




OEI-01-07-00290   Long Term Care Hospital Short-Stay Outliers
Page 3 – Kerry Weems


that diagnosis. For each patient, CMS pays LTCHs an annually adjusted base payment that is
multiplied by the LTC-DRG relative weight.

Although LTC-DRGs are identical to the DRGs that Medicare uses to pay general acute care
hospitals, CMS applies a larger standard Federal payment rate to LTC-DRGs based upon the
resources typically required to treat patients with an average length of stay greater than
25 days.10 In FY 2007, the base payment for LTCHs was $38,086, compared to a standard base
payment of $5,309 for general acute care hospitals.11

Short-Stay Outliers
When CMS applied prospective payment to LTCHs, it reduced payment rates for LTCH stays
that end on or before five-sixths of the average length of stay for an LTC-DRG (short-stay
outliers).12 CMS pays less than the full LTC-DRG payment for these stays because they
typically require fewer resources than longer stays.

For short-stay outlier patients discharged from FY 2003 through June 30, 2006, CMS paid
LTCHs the least of three payment amounts:

•     the full payment for the patient’s LTC-DRG,
•     120 percent of the LTC-DRG per diem, or
•     120 percent of the cost of the stay.13

For patients discharged on or after July 1, 2006, CMS reduced short-stay outlier payments. In the
LTCH payment update, CMS explained that some short-stay outlier patients could more
appropriately receive treatment in general acute care hospitals.14 To discourage LTCHs from
admitting patients whom general acute care hospitals can treat, CMS revised the payment formulas
for short-stay outliers by:15

•     reducing the third payment option to 100 percent of the cost of the stay, and




10 Social Security Act § 1886(d)(1)(B)(iv)(I).

11 42 CFR Parts 405, 412, and 413. The general acute care hospital base rate is the rate for large urban hospitals. The LTCH base rate varies 

depending on the payment adjustments for a patient’s primary diagnosis, the procedures performed on the patient, patient characteristics, and 

facility characteristics (such as labor wages). 

12 42 CFR § 412.529.

13 CMS calculates the per diem by dividing the full diagnosis-related groups (LTC-DRG) payment by the average length of stay and then 

multiplying by the actual length of stay. See 42 CFR § 412.529(c)(1). 

14 Medicare LTCH Payment Update for Rate Year 2007, 71 Fed. Reg. 27798, 27845 (May 12, 2006).

15 Medicare LTCH Payment Update for Rate Year 2007, 71 Fed. Reg. 27851 (May 12, 2006).





OEI-01-07-00290   Long Term Care Hospital Short-Stay Outliers
Page 4 – Kerry Weems


•	    adding a fourth payment option that blends the comparable general acute care hospital per
      diem amount and 120 percent of the LTC-DRG per diem amount.16

Quality Improvement Organization Reviews
As part of the Hospital Payment Monitoring Program, CMS selects a national random sample of
116 LTCH claims each month for QIOs to review. QIOs are Medicare contractors in each State
that conduct case reviews to oversee and enhance the quality of care provided to Medicare
beneficiaries.17 CMS compiles the results of the QIO reviews to project annual national payment
error rates.

For each claim, QIO staff review medical records to evaluate whether the LTCH complied with
Medicare coverage, coding, and billing rules.18 Payment errors that QIOs have identified for
LTCH claims include: inaccurate LTC-DRGs, admissions of inappropriate patients, incomplete
medical records, and technical errors. Based on QIO reviews for 2005, CMS estimated that
nationally about 7 percent of its payments to LTCHs were in error.19 By comparison, CMS
estimated that 5 percent of its payments to general acute care hospitals were in error.
Seventy-five percent of the LTCH claims for which QIOs identified errors were for stays that
lasted 25 days or less.20

Related Office of Inspector General Work
A 2004 Office of Inspector General (OIG) report identified shortcomings in CMS’s oversight of
LTCHs.21 In that report, OIG found that 19 of the 87 HwHs exceeded the annual 5-percent limit
for readmissions from their host hospitals at least once from September 2000 through December
2002. OIG also found that CMS lacked a system to detect readmissions over the 5-percent limit.
CMS also lacked a mechanism to determine whether HwHs were financially and organizationally
separate from their host hospitals. In a December 2006 report, OIG identified and recommended
recovery of overpayments to eight LTCHs in Massachusetts for claims totaling $936,418.22



16 For each day, as the length of stay increases, the percentage based on the general acute care hospital amount decreases and the percentage 

based on 120 percent of the per diem LTC-DRG increases. This blend will pay longer stays an amount closer to the LTC-DRG rate, but shorter

stays will receive rates closer to the general acute care hospital payment rates.

17 Social Security Act, §§ 1862(g) and 1154(a)(1). Also see QIO Eighth Statement of Work, Task 3: Protecting Beneficiaries and the Medicare 

Program.

18 RTI International. “Long-Term Care Hospital (LTCH) Payment System Monitoring and Evaluation.” Phase II Report. January 2007, p. 64.

CMS requires QIOs to use written criteria when reviewing LTCH claims. However, CMS does not mandate which screening criteria the QIOs 

use. CMS, through the Iowa QIO, contracted with McKesson Health Solutions to give QIOs access to McKesson’s InterQualTM level of care 

assessment tools. All but the Massachusetts QIO use the InterQualTM criteria. 

19 CMS. “Improper Medicare Fee-for-Service Payments Report—November 2006 Long Report.” Table 10d: Error Rates and Improper

Payments by Provider Type: QIOs. November 15, 2006.

20 Communication with CMS officials who oversee QIO reviews of hospital claims. April 10, 2007.

21 Office of Inspector General (OIG). “Long-Term Care Hospitals-Within-Hospitals” (OEI-01-02-00630), July 2004.

22 OIG. “Review of Associated Service Payments to Long-Term Care Hospitals in Massachusetts From January 1, 2003, Through April 30,

2004” (A-01-06-00506), December 2006.




OEI-01-07-00290   Long Term Care Hospital Short-Stay Outliers
Page 5 – Kerry Weems


METHODOLOGY

Data Sources and Analysis
We used two CMS data sources: the 100-percent Standard Analytic Files and data from medical
record reviews that QIOs conduct as part of the Hospital Payment Monitoring Program.

Standard Analytic Files
CMS’s 100-percent Standard Analytic Files include 567,327 LTCH claims from FY 2003 through
FY 2006. We identified long term care facility claims by extracting records with a 2 as the third
digit of the provider number. Of these, we excluded records for patients who died while in the
LTCH as well as records that lacked a valid LTC-DRG or discharge date. Our analysis includes
408,289 records. These records include admission and discharge dates and LTC-DRG and LTCH
provider numbers. To identify short-stay outliers, we matched LTCH claims with CMS’s annual
updates of the short-stay outlier threshold, five-sixths of the average length of stay for each
LTC-DRG..

To identify LTCH type (freestanding or HwH), we matched provider numbers in the LTCH records
with a list of HwHs from CMS. If CMS’s list omitted information for a hospital from our claims
database, we called the facility and asked if the LTCH was located in the same building as another
hospital. We found no contact information or received an out-of-business message for 14 hospitals,
representing 3,201 LTCH claims.

Quality Improvement Organization Medical Record Review Data
We obtained QIO medical record review data for all LTCH claims that QIOs reviewed in FYs
2005 and 2006, the first complete years for which QIOs reviewed LTCH claims. QIOs reviewed
2,784 total claims, or 1,392 claims from each year. The records include the types of errors, if any,
that QIOs identified as well as the amounts of payment errors. We used the data to identify
patterns related to payment errors for LTCH claims.

We projected payment errors to the population of LTCH claims from the sample of LTCH claims
that QIOs reviewed during FYs 2005 and 2006. Each month, CMS selects a random sample of
LTCH claims. We weighted the claims for each month based on the total population of claims
from that month.

Standards
We conducted this review in accordance with the “Quality Standards for Inspections” issued by the
President’s Council on Integrity and Efficiency and the Executive Council on Integrity and Efficiency.




OEI-01-07-00290   Long Term Care Hospital Short-Stay Outliers
Page 6 – Kerry Weems


RESULTS

Short-Stay Outliers Decreased Annually From Fiscal Years 2003 Through 2006
CMS reduces payments for short-stay outliers in LTCHs because these stays typically require
fewer resources than longer stays. When CMS reduced payments for short-stay outliers in
FY 2003, it predicted that these stays would decline. At that time, CMS estimated that
48 percent of LTCH stays were short-stay outliers.23 Our analysis of LTCH claims shows that
the number of short-stay outliers has declined annually since CMS introduced reduced payments,
from 40 percent of LTCH stays discharged in FY 2003 to 27 percent of stays discharged in
FY 2006. (See Chart 1 below.) That decline was the same for both HwHs and freestanding
facilities.

                                    Chart 1: Percentage of Short-Stay Outliers by Fiscal Year of Discharge
                              45%




                              40%

                                              40%
   Percentage of LTCH Stays




                              35%



                                                                                   33%



                              30%
                                                                                           31%



                                                                                                     27%

                              25%




                              20%
                                            2003                               2004      2005     2006

Source: Office of Inspector General analysis of Standard Analytic Files, 2007.




The decline in short-stay outliers is also consistent across geographic location. Although the
percentage of short-stay outliers varied slightly geographically, the number of short-stay outliers
declined in every geographic area we reviewed. (See Appendix A for short-stay outlier trend details.)


23 71 Fed. Reg. 27846 (May 12, 2006).




OEI-01-07-00290                      Long Term Care Hospital Short-Stay Outliers
Page 7 – Kerry Weems


Despite the Overall Decline in Short-Stay Outliers, Discharge Patterns Raise Questions
One question relates to whether these patients are appropriately placed in LTCHs given their short
lengths of stay. From FYs 2003 through 2006, LTCHs discharged over a third of short-stay outlier
patients at least 10 days before they reached the short-stay outlier threshold (five-sixths of the average
length of stay for each LTC-DRG). The LTCH stays that ended at least 10 days before the short-stay
outlier threshold (very short stays) accounted for 36 percent to 41 percent of short-stay outliers
throughout the 4-year period we reviewed. (See Table 1 on the following page.)




     Table 1: Lengths of Stay for Short-Stay Outliers, Fiscal Years 2003 to 2006

    Length of Stay                                                               FY 2003   FY 2004   FY 2005   FY 2006

    Discharged at Least 10 Days Before the Short-Stay Outlier Threshold             41%       39%       37%       36%

    Discharged 5 to 9 Days Before the Short-Stay Outlier Threshold                  31%       31%       32%       32%

    Discharged 3 to 4 Days Before the Short-Stay Outlier Threshold                  13%       14%       15%       14%

    Discharged up to 2 Days Before the Short-Stay Outlier Threshold                 14%       16%       16%       17%

      Total                                                                         99%      100%      100%       99%

Source: Office of Inspector General analysis of Standard Analytic Files, 2007.



Very short stay patients usually had lengths of stay that were closer to the average length of stay for
patients with similar DRGs at general acute care hospitals than the average length of stay for the
diagnosis at LTCHs. (See Chart 2 on the following page for analysis by the 10 most common
LTC-DRGs for very short stay patients in FY 2006.) For example, in FY 2006, the most common
LTC-DRG for very short stay patients was “Respiratory system diagnosis with ventilator support”
(LTC-DRG 475). In FY 2006, very short stays for this LTC-DRG lasted 19 days, at most. The
average length of stay for this diagnosis in general acute care hospitals was 8 days, compared to an
average length of stay of 35 days in LTCHs.




OEI-01-07-00290   Long Term Care Hospital Short-Stay Outliers
Page 8 – Kerry Weems




         Chart 2: Lengths of Very Short Stays Compared to Average Lengths of Stay at General
         Acute Care Hospitals and LTCHs for FY 2006, by Top 10 LTC-DRGs for Very Short
         Stays


              RESPIRATORY DIAGNOSIS
               WITH VENTILATOR (475)


                    SKIN ULCERS (271)


              PULMONARY EDEMA &
            RESPIRATORY FAILURE (87)


                      SEPTICEMIA (416)



                     AFTERCARE (466)                                                                       Average Length of
                                                                                                           Stay at General Acute
                                                                                                           Care Hospital
           RESPIRATORY INFECTIONS &                                                                        Maximum Length of
              INFLAMMATIONS (79)                                                                           Very Short Stay at
                                                                                                           LTCH
             SKIN GRAFT &/OR DEBRIDE                                                                       Average Length of
                      (263)                                                                                Stay at Long Term
                                                                                                           Care Hospital

                  REHABILITATION (462)


               AFTERCARE,
         MUSCULOSKELETAL SYSTEM &
          CONNECTIVE TISSUE (249)

              DEGENERATIVE NERVOUS
              SYSTEM DISORDERS (12)


                                         0       5         10    15    20       25     30   35   40   45
                                                                      Number of Days

        Source: Office of Inspector General analysis of Standard Analytic Files, 2007.



Another question relates to whether financial incentives trigger the discharge date rather than the
patient condition. From FYs 2003 through 2006, LTCHs increasingly discharged patients within
2 days after they qualified for full LTC-DRG payments. Throughout the FY 2003 to FY 2006 period,
LTCHs discharged more patients in the 2 days after they passed the short-stay outlier threshold and
qualified for full LTC-DRG payments than in the 2 days before. (See Chart 3 on the following page.)
Each year, LTCHs discharged fewer patients on the day before they qualified for a full LTC-DRG
payment than on any of the other 4 days before or after the short-stay outlier threshold.

This pattern became more prominent from FYs 2003 to 2006. In FY 2003, LTCHs discharged
4 percent of all patients in the 2 days before the threshold and 6 percent of patients in the




OEI-01-07-00290    Long Term Care Hospital Short-Stay Outliers
Page 9 – Kerry Weems


2 days after. By FY 2006, LTCHs discharged 4 percent of patients in the 2 days before the threshold
and 10 percent of patients in the 2 days after the threshold.24


         Chart 3: Long Term Care Hospital Discharges Before and After the Short-Stay Outlier
         Threshold, FYs 2003 to 2006

                                           7%




                                           6%

                                                                           Short-Stay Outlier Threshold


                                           5%
           Percentage of LTCH Discharges




                                           4%
                                                                                                                                                                                  2003
                                                                                                                                                                                  2004
                                                                                                                                                                                  2005
                                           3%                                                                                                                                     2006




                                           2%




                                           1%




                                           0%
                                                 4 Days Before   3 Days Before   2 Days Before   1 Day Before First Day of Full 2nd Day of Full 3rd Day of Full 4th Day of Full
                                                 Full LTC-DRG    Full LTC-DRG    Full LTC-DRG    Full LTC-DRG    LTC-DRG          LTC-DRG         LTC-DRG         LTC-DRG
                                                                                                   Timing of LTCH Discharge

        Source: Office of Inspector General analysis of Standard Analytic Files, 2007.



From FY 2003 to July 2006, LTCH payments increased sharply on the day patients qualified for
full LTC-DRG payments. In the Medicare LTCH Payment Update for Rate Year 2007, CMS noted
that the increase in payment for a full LTC-DRG stay encouraged LTCHs to retain patients just
long enough to pass the short-stay outlier threshold and qualify for full LTC-DRG payments.25
Analysis of claims from FYs 2003 through 2006 shows that LTCH discharges did systematically
increase after this threshold. Accordingly, for LTCH discharges on or after July 1, 2006, CMS



24 To estimate the percentage of patients discharged in the 2 days before and after the threshold, we combined the number of
patients discharged each day. For example, we calculated that in 2006, LTCHs discharged 10 percent of patients in the
2 days after the threshold by combining the 4 percent of patients discharged in the first day and 6 percent of patients
discharged in the second day. Chart 3 presents the percentage of patients discharged each day.
25 71 Fed. Reg. 27847 (May 12, 2006).




OEI-01-07-00290                                 Long Term Care Hospital Short-Stay Outliers
Page 10 – Kerry Weems


revised the payment formula to remove the sharp increase in payment after the short-stay outlier
threshold by incrementally increasing the LTCH’s payment rate as a patient’s stay lengthens.26

The discharge patterns to post-acute care facilities for short-stay outlier patients differed from
discharge patterns of other LTCH patients. From FYs 2003 to 2006, 74 percent of all LTCH patients
came directly from general acute care hospitals. Yet, LTCHs had to return 25 percent of short-stay
outlier patients to general acute care hospitals, compared to only 8 percent of all other LTCH patients.
(See Table 2 below.) Although LTCHs discharged 36 percent of patients who stayed past the
short-stay outlier threshold to skilled nursing facilities, they discharged only 15 percent of short-stay
outlier patients to skilled nursing facilities, which provide less intense services.


                      Table 2: Treatment After Discharge From Long Term Care
                      Hospital, Fiscal Years 2003 to 2006*
                                                                 Percentage of Short-Stay      Percentage of Other
                      Treatment After LTCH Discharge                     Outlier Patients          LTCH Patients
                        Home Health Agency                                          26%                      28%

                        General Acute Care Hospital                                 25%                        8%

                        Home or Self Care                                           23%                      16%

                        Skilled Nursing Facility                                    15%                      36%

                        Other                                                       11%                      12%

                          Total                                                    100%                     100%

                      Source: Office of Inspector General analysis of Standard Analytic Files, 2007.
                      *Trends remain generally consistent throughout the FY 2003 to 2006 period.




For Fiscal Years 2005 and 2006, Short-Stay Outlier Payment Errors Mirror Those of All
Other LTCH Claims
Inaccurate LTC-DRGs and inappropriate LTCH admissions account for almost all of the payment
errors that QIO reviewers identified for LTCH claims during this period.27 (See Table 3 on the
following page. See Appendix B for confidence intervals for all estimates.) QIO reviewers
identified about the same percentage of payment errors in short-stay outlier claims as other LTCH
claims. Error rates were also constant for LTCH stays that ended more than 10 days before the
short-stay outlier threshold as well as stays that ended just after the threshold.




26 Ibid.

27 We estimated these figures by projecting national estimates from the sample of LTCH claims that QIOs reviewed. 





OEI-01-07-00290   Long Term Care Hospital Short-Stay Outliers
Page 11 – Kerry Weems


                        Table 3: Payment Errors for Long Term Care Hospital
                        Stays, Fiscal Years 2005 and 2006*
                                                                Percentage of Short-Stay   Percentage of Other
                        Type of Payment Error                            Outlier Claims         LTCH Claims
                        No Error                                                   83%                   85%

                        Inappropriate Admission                                     9%                      6%

                        Inaccurate DRG                                              7%                      8%

                        Other Errors                                                1%                      1%

                           Total                                                  100%                  100%

                      *All estimates are projected to national population, based on a sample of LTCH
                       claims. None of these estimates differs significantly at the 95-percent confidence
                       level.
                      Source: Office of Inspector General analysis of QIO Medical Record Reviews, 2007.




Based on our analysis of QIO reviews of LTCH claims, we estimate that about $85 million, or
6 percent, of CMS payments to LTCHs for short-stay outlier claims during the FY 2005 to 2006
period were erroneous. This error rate was not statistically different from the error rate for other
LTCH stays (4 percent). For short-stay outliers in FY 2005, the average net error for inappropriate
admissions ($20,112) was higher than the average net error for DRG changes ($3,175).

CONCLUSION
From FYs 2003 through 2006, short-stay outliers steadily declined. These declines coincided with
CMS’s implementation of a prospective payment system that cut payments for these stays. Further,
to remove incentives for LTCHs to admit patients inappropriately or keep them longer than
necessary, CMS revised short-stay outlier payments for patients discharged on or after July 1, 2006.

Despite the overall decline in short-stay outliers, some discharge patterns raise questions about the
appropriateness of placements at LTCHs. Patients whom LTCHs discharged at least 10 days before
the short-stay outlier threshold or who were readmitted to general acute care hospitals directly after
LTCH stays could have more appropriately received treatment at a general acute care hospital.

This memorandum report is being issued directly in final form because it contains no
recommendations. If you have comments or questions about this report, please provide them
within 60 days. Please refer to report number OEI-01-07-00290 in all correspondence.




OEI-01-07-00290   Long Term Care Hospital Short-Stay Outliers
 Page 12 – Kerry Weems

   Δ             A P P E N D I X                                    ~            A



                                                          Trends in Short-Stay Outliers



 Table 1: Percentage of Stays That Were Short-Stay Outliers, by Facility Type
    Facility Type                                   FY 2003                      FY 2004             FY 2005         FY 2006

    Hospital-within-Hospital                             41%                         34%                31%             26%

    Freestanding Hospital                                39%                         33%                31%             28%

Source: Office of Inspector General analysis of Standard Analytic Files, 2007.




 Table 2: Percentage of Short-Stay Outliers, by U.S. Census Region

    Region                                     FY 2003               FY 2004               FY 2005         FY 2006
    Midwest                                         41%                   34%                 31%              29%

    Northeast                                       43%                   38%                 35%              32%

    South                                           38%                   32%                 29%              25%

    West                                            43%                   34%                 31%              26%

 Source: Office of Inspector General analysis of Standard Analytic Files, 2007.




 OEI-01-07-00290      Long Term Care Hospital Short-Stay Outliers
Page 13 – Kerry Weems

 Δ             A P P E N D I X                                    ~ B


                                    Confidence Intervals for Payment Error Estimates



         Proportion of Long Term Care Hospital Claims With Payment Errors, Fiscal Years
                                       2005 and 2006
                                                   Short-Stay Outlier Claims                                           Other LTCH Claims



                                                                                95-Percent                                                    95-Percent
 Type of Payment Error                        Point Estimate            Confidence Interval                  Point Estimate           Confidence Interval
 No Error                                               83.4%                  81.1% – 85.8%                                               83.7% – 86.9%
                                                                                                                       85.3%
 Inappropriate Admission                                  8.5%                  6.7% – 10.3%                                                 4.6% – 6.7%
                                                                                                                        5.7%
 Inaccurate Long Term Care-
                                                          7.2%                    5.6% – 8.9%                                                6.6% – 9.1%
 Diagnosis Related Groups                                                                                               7.8%
 Other Errors                                             0.8%                    0.3% – 1.4%                                                0.7% – 1.7%
                                                                                                                        1.2%
 Total                                                 99.99%                                                          100%

 Source: Office of Inspector General analysis of Quality Improvement Organization (QIO) medical record review data, 2007.




     Payment Error Amounts for LTCH Claims, Fiscal Years 2005 and 2006

                                                                                                                                           95-Percent
                                                                                            Point Estimate                         Confidence Interval
 Average net error amounts for short-stay outlier claims with errors                                  $5,687                            $4,602 – $6,773

 Average net error amounts for other long term care hospital (LTCH)
                                                                                                    $11,884                            $9,669 – $14,100
 claims with errors

 Total payment error amounts for short-stay outlier claims                                       $84,801,504                 $64,192,183 – $105,410,822

 Total payment error amounts for other LTCH claims                                              $304,271,761                $237,958,404 – $370,585,118

 Percentage of payments for short-stay outlier claims in error                                         6.1%                                4.6% – 7.6%

 Percentage of payments for other LTCH claims in error
                                                                                                       4.3%                                3.3% – 5.2%
   Source: Office of Inspector General analysis of QIO medical record review data, 2007.




OEI-01-07-00290     Long Term Care Hospital Short-Stay Outliers
Page 14 – Kerry Weems

A    P    P E N D               I X ~          B




     Average Net Payment Error Amount by Error Type, Fiscal Year 2005

                                                                                                                 95-Percent
                                                                                        Point Estimate   Confidence Interval
 Average net error amount for admission denial errors                                        $20,112       $17,699 – $22,525

 Average net error amount for admission denial errors                                         $3,175         $1,296 – $5,054

Source: Office of Inspector General analysis of QIO medical record review data, 2007.




OEI-01-07-00290     Long Term Care Hospital Short-Stay Outliers
